Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





    Beneficiary Satisfaction with
     1996 Medicare Handbook




                       @ SERV1CE8 C?O
                  ~+
                                   7
              +

         ~v
                                        JUNE    GIBBS BROWN
         z                              Inspector    General

         2

         %
 $
           %’
            ++                                 FEBRUARY 1997
             %’dz
              >                                 OE14M—%—0028Q
                     OFFICE      OF INSPECI’OR        GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.


                       Office   of Evaluation   and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

The OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional
Inspector General. Principal OEI staff included:

Region                                            Headquarters

Betty Apt, Team Leader                            Stuart Wright, I+ogram Specialkt

Jason Stanfield, Contractor                       Linda Moscoe, Technical Suppoti

Jackie Watkins, Program Analyst                   Barbara Tedesco, Statistician

Joe Townsel, I?rogramAnalyst

Peggy Daniel, Program Analyst

Tammy Hipple, Statistician



To obtain a copy of this report, call the Atlanta Regional Office at 404-331-4108.
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





    Beneficiary Satisfaction with
     1996 Medicare Handbook




                   @ SERVICE$
               #                ~a,
          *.
                                      JUNE    GIBBS BROWN
         #
         ~                            Inspector    General
         ‘s
         % $
           %.
            @--                              FEBRUARY 1997
               >
             ‘*dza
                                              OEI-04—%00280
              EXECUTIVE                        SUMMARY

PURPOSE

To determine beneficiary satisfaction with the format and content of the 1996
Medicare Handbook.

BACKGROUND

Prior to 1996, the Health Care Financing Administration (HCFA) mailed a Medicare
handbook to new enrollees, but did not mail it to all beneficiaries unless major
changes occurred in the Medicare program. In 1996, HCFA mailed a new handbook
to all beneficiaries. However, to contain the cost of printing and mailing, HCFA cut
the number of pages of the 1996 Medicare Handbook by revising the format and
including fewer details. HCFA officials are now considering the feasibility of mailing a
new handbook to all beneficiaries every year.

To help them plan future handbooks, HCFA requested that we conduct a survey of
beneficiaries to get their opinions on the new fo;mat and content. Some 538
beneficiaries responded to our survey.

FINDINGS

About a fourth of the respondents had not received the 19% Me&are Handbook

Most beneficiaries who did receive it were satisfied with the format and content of the
1996 handbook

Ninety-one percent said the new handbook was clearly written.

Ninety-three percent said it provided enough information to understand Medicare
benefits.

Ninety-five percent thought it would be helpful to them.

Eighty-one percent of beneficiaries who remembered receiving previous handbooks
preferred the 1996 shorter edition over the previous longer editions.




                                           i
Opinions were mixed on frequency of distribution for handbooks

Forty-eight percent said they would like to receive a new handbook every year.

Forty-five percent said they would like to receive a new handbook only when there
were major changes in the Medicare program.

AGENCY @MMENTS

The HCFA Administrator commented on our report. Since a fourth of the
beneficiaries said they did not receive the handbook, HCFA plans to examine their
distribution strategies to determine ways to improve dissemination of the handbook.




                                          ii
                  TABLE                   OF CONTENTS

                                                                                                              PAGE




ExmuTM3        SUMMARY


INTRODUCTION        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1



FINDINGS


 �   AFourth   of Beneficiaries Had not Received Handbook                          . . . . . . . . . . . . . . . . . 2


 � Most Were Satisfied with in.......                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2


 c About Three-fourths      Typically Use Handbook                  . . . . . . . . . . . . . . . . . . . . . . ...2


 c Opinions Were Mixed About Frequency of Handbook Distribution                                     . . . . . . . . . 2



AGENCY COMM13NTS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3



APPENDIX

     Beneficiary Responses to Survey            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

     HCFAComments         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l
                         INTRODUCTION

PURPOSE

To determine beneficiary satisfaction with the format and content of the 1996
Medicare Handbook.

BACKGROUND

Every year, the Health Care Financing Administration (HCFA) publishes a Medicare
handbook for beneficiaries that explains how the Medicare program works and what
the benefits are. Prior to 1996, HCFA mailed the handbook to new enrollees, but did
not mail it to all beneficiaries unless major changes occurred in the Medicare program.
Handbooks were available upon request from several sources, such as Social Security
offices, HCFA regional offices, and senior citizen organizations.

In 1996, HCFA mailed a new handbook to all beneficiaries. However, to contain the
cost of printing and mailing, HCFA cut the number of pages of the 1996 Medicare
Handbook by revising the format and including fewer details. HCFA officials are now
considering the feasibility of mailing a new handbook to all beneficiaries every year.

To help them plan future handbooks, HCFA requested that we conduct a survey of
beneficiaries to get their opinions on the format and content.

METHODS

In July 1996, we mailed questionnaires to 749 Medicare beneficiaries. Beneficiary
participation in the sumey was voluntary. A total of 538 beneficiaries returned
completed questionnaires, for a response rate of 72 percent.

Percentages in this report are based on the number of beneficiaries answering each
question. Estimates are within 5.0 percent of the true value at the 95 percent
confidence level for most questions. Appendix A shows beneficiary responses to the
questionnaire,

A consideration in surveys of this type is that the results may be biased if non-
respondents are significantly different from respondents. To determine whether
significant differences exist in this survey, we performed various analyses, including a
comparison of age and gender for the 542 respondents and the 232 non-respondents.
The analyses revealed no significant difference, which suggests that our survey results
were not biased with respect to these factors.
                                 ——          .—         —

We conducted this inspection in accordance with the Quality Standards for Iiwpections
issued by the President’s Council on Integrity and Efficiency.


                                            1
                                FINDINGS


A FOURTH OF THE BENEFICIARIES RESPONDING                   TO OUR SURVEY HAD
NOT RECEIVED THE 19% M!?DIC4RE M4NDBOOK

 �	
      Twenty-seven percent of the respondents surveyed said they had not received
      the 1996 Medicare Handbook.

MOST BENEFICIARIES WHO DID RECEIVE lT WERE SATISFIED WITH THE
FORMAT AND CONTENT OF THE HANDBOOK

 �
      Ninety-seven percent said the wording was easy to understand.

 �
      Ninety-eight percent said the lettering was large enough to read.

 �	
      Ninety-three percent said the new handbook provided enough information to
      understand Medicare benefits.

 �
      Ninety-five percent thought it would be helpful to them.

 �
      Ninety-one percent said it was clearly written.

 �	
      Eighty-one percent of beneficiaries who remembered receiving previous
      handbooks preferred the 1996 shorter edition over the previous longer editions.

ABOUT THRE13FOURTHS            OF BENEFICIARIES         TYPICALLY USE THE
HANDBOOK

 �	
      Seventy-three percent of beneficiaries who remembered receiving previous
      handbooks said they generally use their handbook at least once a year.

 �	
      Thirty-seven percent of the beneficiaries who had received the 1996 handbook
      said they had used it. (As the 1996 handbook was mailed only a few months
      prior to our survey, we are unable to determine a year’s use for it.)

BENEFICIARY OPINIONS WERE MIXED ABOUT HOW OIVEN THEY
WANTED TO RECEIVE A NEW HANDBOOK

 �
      Forty-eight percent said they would like to receive a new handbook every year.

 �	
      Forty-five percent said they would like to receive a new handbook only when
      there were major changes in the Medicare program.

 �	
      Six percent of the beneficiaries said they would like to receive a new handbook
      every 3 years.


                                           2
                   AGENCY                COMMENTS

The HCFA Administrator commented on our draft report. Since a fourth of the
beneficiaries said they did not receive the handbook, HCFA plans to examine their
distribution strategies to determine ways to improve dissemination of the handbook.

Appendix B shows the full text of the comments provided by HCFA.




                                           3

                                           APPENDIX                                  A

                     RESPONSES TO 19% MEDICARE HANDBOOK SURVEY



Question                                   Response             Percentage


1.	         Medicare recently mailed the 19% Medicare Handbook to each beneficiary. It
            is a 3@age booklet with a two-page introduction. It h= a picture of a portion
            of the American flag on the cover.

            Did you receive your 1996 Medicare Handbook?

            Yes                            392                  73%
            No                             146                  27%

-----------------------------   -----------------------------    ----------------------------   ------------------------   --


2.          Have you used your new 1996 Medicare Handbook yet?

             Yes                           146                  37%
             No                            246                  63%



3.	         Thinking about the 1996 Medicare Handbook you have receiv@ would you say
            that...

            a.           The wording is easy to understand?

                         Yes               369                  97%
                         No                 13                   3%

            b.           The lettering is large enough to read?

                         Yes               380                  98%
                         No                 7                    2%




                                                                A-1

Question                                Responses            Percentage



4.�    Does the 1996 Medicare Handbook pruvide enough information for you to
       understand your Medicare benefits?

       Yes                                     354            93%
       No                                      27              7%

       If No, please explaiw 11 Responded




 Tests Which Are Not Covered                             I           2
  Coverage for Mental and Emotional Disabilities         I           1

  Medigap Insurance                                                  1
                                                         I

  Limits to Medicare Benefits                            I           1
  Coverage for Dental Care                                           1
  HMOS                                                   I           1
  Coverage for Drugs                                     I           1
  Emergency Room Coverage                                            1
                                                                           I
IIMaximums for Lifetime Benefits                         I           1     II
  Coverage for Glasses Following Cataract Surgery                    1



5.     Do you think the 1996 Medicare Handbook will be:

       (Check one.)

       Very Helpful                                166        42%
       Generally Helpful                       206            53%
       Generally Not Helpful                    11             370
       Not Helpful at All                        7             270




                                        A-2

Question                                 Responses               Percentage



6.    was any              part of the new 1996 Medicare Handbook confusing to you?

      Yes                                       30                 8%
      No                                        337               92?40

      If you answered Y-     which part was confusing        16 Responded




 Definition of Home Care                                I              1

 Reserve Days                                           I              1

 How Much Doctors Can Charge                            I              1

 Skilled Nursing Home Coverage                          I              1


 Hospice Care

 Unlimited Benefit Period (Page 7)                                     1

 Difference between Part A and Part B                                  1

 Coverage for Tests                                     I              1

 Coverage for Outpatient   Treatment                    I              1

 Home Health                                            I              1


 Medigap Insurance                                                     1

                                                        I


 Exceptions to the General Rules                                       1





                                         A-3

Question                                                Responses                 Percentage



7.�      Medicare Handbooks are given to beneficiaries when they enroll in the
         Medicare progranq and were mailed to all beneficiaries in 1990.

         The 1996 Medicare Handbook is less detailed than previous editions of the
         handbook. Therefore, it has half the number of pages than previous editions.

         Please compare the 1996 Medieare Handbook to the longer, more detailed
         Medicare Handbook we issued in the past. Tell us which one you like best.

         (please check ONLY ONE.)

         I prefer the shorter edition,
           even though it has fewer details
           (like the 1996 Medicare Handbook).                    178                469Z0

         I prefer the longer edition with
           more details (like previous
           Medicare Handbooks).                                  42                 11%

         I don’t remember the previous
           editions, so I cannot compare
           them to the 1996 Medica;e Handbook.                   168                43%

----------------------------------------------------------------------------------------------------------------
8.       How many times a year do you generally use your Medicare Handbook?

         (Check ~.)

         1 to 3 times                                            188                49%
         More than 3 times                                        46                12%
         I have not ever used
           the Medicare Handbook.                                 84                22%
         I do not recall receiving
           a Medicare Handbook before
           new one was sent to me.                                63                17%




                                                       A-4

Question                               Responses          Percentage



9.�    A new Medicare Handbook is printed every year, even if there are few changes
       to the Medicare program. How often would you like to receive a new copy of
       the handbook?

       (please check ONLY ONE.)

       Every year, regardless of how
        minor the changes are in the
        Medicare program.                     180          48%

       Every 3 years.                          24           6%

       Only when there are major
        changes in the
        Medicare program.                     168          45%

       Other:                                   3           19?0




  Every 5 Years                                                  1
  Every 4 Years, Plus When Major Changes                         1
  Often Enough to Keep Abreast of Changes                        1




                                       A-5

10.   Do you have suggestions for improving the handbook to make it more useful to
      beaiciarieslike-jcmrself? -



 Send only the changes in a page or two                        3
                                                       I

 Make the wording simpler--more elementary                     3
                                                       I

 Eliminate hard glossy cover--too expensive                    3
                                                       I
 Keep instructions on a topic together--do not split           2

 it up (e.g., managed care starts on page 4, and is

 continued on pages 19 and 20.)

 Give more details as to what is covered and what is           2
 not covered
 Just say what ~ covered, and omit what is @                   1
 covered
 Show an example of an EOMB with explanation of                1
 what the figures mean
 Make it smaller                                               1
 Cut all the ifs, ands, and buts                               1
 Make the handbook a 3-ring binder.    Then send               1
 only pages that changed
 Send to persons when they are age 64 so they will             1
 know they can apply early
 Avoid using shaded boxes                                      1




                                          A-6

 APPENDIX    B




HCFA COMMENTS




       B-l
     . . +’”   “’’’’”‘,,


           Jig
 .
s
?
                                I) EPA RT,MENTOF      HEALTH    A HUMAN                  SEtl VICES               Health   Care   FInarc   Ing   Admln,$trattnr!
:
*
  %,                                 ,.-.                       . . . . .. . ..    -,.   ... —. ——-         .-—    . ..
  . ..
         +%,0
          3                                                                                                       Iile Adm~fl$sfratcf
                                                                                                                  Washington c),c,          292871



                                                                                  OEC 24              JW




                           T(’) :	          June Gibbs Brown
                                            Inspector General




                           SUBJECT:         Drafl   Repofl on the 1996 Medicure M-wibook

                           Thank you for sharing the recent working drafl report concerning the /996 Mwkarw Hcmibwk
                           We requested thk survey to gauge customer satisfaction with our new Hmibook design. The
                           findings cm the content, h-mat and distribution of this publication were helpful. It was gratifying
                           to learn that the vast majority of our beneficiaries were satisfied with the infommtion and i~s
                           presentation and that most beneficiaries use the I-iundbuok regularly,

                           We were interested in the finding th~t 28 percent of those surveyed stated that they had not
                           received the /996 Handbook. This is surprising considering the attention generated by last year’s
                           mailing. We believe fbrther evaluation of that segment of the beneficiary population will be
                           helptid in our efforts to continuously improve the quality of bot h content and distribution of our
                           informationalmaterials. We plan to carefilly examine our distribution strategies in order to define
                           the group reportingnmreceipt and to enhance the effectiveness of the distribution. We hope
                           members of your staff that are familiar with these issueswill be able to work with us on this
                           initiative,
n                ,lmcr#   ~
            ,*
        @                 J’+
    �
    *
    $
    ~
    s
      %
       %4
        -d,a 4L                     DEPARTMENT         OF HEALTH&      HUMAN   SERVICES             Office of Inspector General




                                                                                                    Memorandum
                     Date       ~       5 ~

                     ~ro~	 June Gibbs          Brown                           (@
                                Inspector     Gener                   86

                                OIG Final Repor          :    ‘Beneficiary Satisfaction   with 1996 Medicare
                     %@C~Handb~ok,,,           OEI-O
                                                        P -96-00280

                                Bruce C. Vladeck

                    “To         Administrator

                                Health Care Financing Administration



                                Attached is our final inspection report on beneficiary satisfaction

                                with the 1996 Medicare Handbook.  More than 500 randomly selected

                                beneficiaries nationwide responded to our survey about their

                                satisfaction with the content and format of the new handbook.


                                Most Medicare beneficiaries who received the new handbook thought it

                                provided them with enough information to understand Medicare

                                benefits.   Actually, most preferred the condensed 1996 version to

                                the more detailed earlier versions of the handbook.    However, 27

                                percent said they had not received the 1996 handbook.    Beneficiary

                                opinions were mixed on how often they would like to receive the

                                handbook.   The Health Care Financing Administration  (HCFA) plans to

                                examine their distribution strategies to determine ways to improve

                                dissemination of handbooks.


                                We appreciate your comments on our draft report.   We are pleased to

                                hear that HCFA is examining distribution strategies to determine

                                ways to improve dissemination of the handbook.


                                If you have any questions or comments, please call me or George
                                Grob, Deputy Inspector General for Evaluation and Inspections, or
                                have your staff contact Mary Beth Clarke at (202) 619-2481.

                                Attachment


                                cc :   Melissa Skolfield

                                       Assistant	 Secretary            for

                                         Public Affairs


                                       David Garrison

                                       Principal Deputy Assistant

                                       Secretary for Planning

                                         and Evaluation


                                       Richard J. Tarplin

                                       Assistant Secretary

                                         for Legislation-Designate


                                       John J. Callahan

                                       Assistant Secretary for

                                         Management and Budget

                                                                                             .
f-!
          ,**WC* ‘%
         *+
       �
       ’

      #
      ss
      %
      -4
        �  4L
        +%,na
                        DEPARTMENT     OF HEALTH&    HUMAN   SERVICES             offiCe   Of




                                                                                  Memorandum
                                                                                                Inspector General




             Date     FEB    5 ~
             From June Gibbs Brown                           &
                      Inspector     Gener           @&

                  OIG Final Repor : ‘Beneficiary Satisfaction           with 1996 Medicare

             S@@Handbook,,l      P -96-00280

                             OEI-()

                      Bruce C. Vladeck
             “To      Administrator
                      Health Care Financing Administration


                      Attached is our final inspection report on beneficiary satisfaction

                      with the 1996 Medicare Handbook.  More than 500 randomly selected

                      beneficiaries nationwide responded to our survey about their

                      satisfaction with the content and format of the new handbook.


                      Most Medicare beneficiaries who received the new handbook thought it

                      provided them with enough information to understand Medicare

                      benefits.   Actually, most preferred the condensed 1996 version to

                      the more detailed earlier versions of the handbook.    However, 27

                      percent said they had not received the 1996 handbook.    Beneficiary

                      opinions were mixed on how often they would like to receive the

                      handbook.   The Health Care Financing Administration  (HCFA) plans to

                      examine their distribution strategies to determine ways to improve

                      dissemination of handbooks.


                      We appreciate your comments on our draft report.   We are pleased to

                      hear that HCFA is examining distribution strategies to determine

                      ways to improve dissemination of the handbook.


                      If you have any questions or comments, please call me or George

                      Grob, Deputy Inspector General for Evaluation and Inspections, or

                      have your staff contact Mary Beth Clarke at (202) 619-2481.


                      Attachment


                      cc :   Melissa Skolfield

                             Assistant	 Secretary    for

                               Public Affairs


  .                          David Garrison

                             Principal Deputy Assistant

                             Secretary for Planning

                               and Evaluation


                             Richard J. Tarplin

                             Assistant Secretary

                               for Legislation-Designate


                             John J. Callahan

                             AssisCant Secretary for

                               Management and Budget

                                                                           .
/                 ,Swlm=   ~
             ,+
        *+                 %
    �
    *




              4c
    #                            DEPARTMENT    OF HEALTH&    HUMAN   SERVICES             OffIceof Inspector General
    s
    G
      %.b,,a
                                                                                          Memorandum
                     D.!e ~            s ~

                     ~[om June Gibbs Brown                           d

                          Inspector Gener &!?j&



                                                 v
                          OIG Final Repor :
 ‘Beneficiary Satisfaction
                     S@eCtHandbook,,, OEI-O -96-00280


                               Bruce C. Vladeck
                                                                                with 1996 Medicare


                     “To       Administrator
                               Health Care Financing Administration


                               Attached is our final inspection report on beneficiary satisfaction

                               with the 1996 Medicare Handbook.  More than 500 randomly selected

                               beneficiaries nationwide responded to our survey about their

                               satisfaction with the content and format of the new handbook.


                               Most Medicare beneficiaries who received the new handbook thought it

                               provided them with enough information to understand Medicare

                               benefits.   Actually, most preferred the condensed 1996 version to

                               the more detailed earlier versions of the handbook.    However, 27

                               percent said they had not received the 1996 handbook.    Beneficiary

                               opinions were mixed on how often they would like to receive the

                               handbook.   The Health Care Financing Administration  (HCFA) plans to

                               examine their distribution strategies to determine ways to improve

                               dissemination of handbooks.


                               We appreciate your comments on our draft report.   We are pleased to

                               hear that HCFA is examining distribution strategies to determine

                               ways to improve dissemination of the handbook.


                               If you have any questions or comments, please call me or George

                               Grob, Deputy Inspector General for Evaluation and Inspections, or

                               have your staff contact Mary Beth Clarke at (202) 619-2481.


                               Attachment


                               cc :   Melissa Skolfield

                                      Assistant	 Secretary   for

                                        Public Affairs


                                      David Garrison

                                      Principal Deputy Assistant

                                      Secretary for Planning

                                        and Evaluation


                                      Richard J. Tarplin

                                      Assistant Secretary

                                        for Legislation-Designate


                                      John J. Callahan

                                      Assistant Secretary for

                                        Management and Budget

                                                                                   .
/             SSWC8* ~
         ,*
     *4+                 +




              4c
    **
    2                            DEPARTMENT   OF HEALTH&    HUMAN   SERVICES             OffIce of Inspector General
    ~
    5
      %’
       %~bv,,a
                                                                                         Memorandum
                 Date        ~      5 ~

                 ~~0~	 June Gibbs           Brown                   &
                             Inspector     Gener           86

                      OIG Final Repor : ‘Beneficiary Satisfaction              with 1996 Medicare
                 S@eCtHandbook,,, OEI-OP -96-00280

                             Bruce C. Vladeck

                 “To         Administrator

                             Health Care Financing Administration



                             Attached is our final inspection report on beneficiary satisfaction

                             with the 1996 Medicare Handbook.  More than 500 randomly selected

                             beneficiaries nationwide responded to our survey about their

                             satisfaction with the content and format of the new handbook.


                             Most Medicare beneficiaries who received the new handbook thought it

                             provided them with enough information to understand Medicare

                             benefits.   Actually, most preferred the condensed 1996 version to

                             the more detailed earlier versions of the handbook.    However, 27

                             percent said they had not received the 1996 handbook.    Beneficiary

                             opinions were mixed on how often they would like to receive the

                             handbook.   The Health Care Financing Administration  (HCFA) plans to

                             examine their distribution strategies to determine ways to improve

                             dissemination of handbooks.


                             We appreciate your comments on our draft report.   We are pleased to

                             hear that HCFA is examining distribution strategies to determine

                             ways to improve dissemination of the handbook.


                             If you have any questions or comments, please call me or George

                             Grob, Deputy Inspector General for Evaluation and Inspections, or

                             have your staff contact Mary Beth Clarke at (202) 619-2481.


                             Attachment


                             cc :   Melissa Skolfield

                                    Assistant	 Secretary    for

                                      Public Affairs


                                    David Garrison

                                    Principal Deputy Assistant

                                    Secretary for Plaming

                                      and Evaluation


                                    Richard J. Tarplin

                                    Assistant Secretary

                                      for Legislation-Designate

                                    John J. Callahan

                                    Assistant Secretary for

                                      Management and Budget

                                                                                  �
        ,* ,Sn’let,   ~




4 <
    &                 %
�
+

g                            DEPARTMENT    OF HEALTH    & HUMAN   SERVICES                 OffIce of Inspector General
ss
 8
   %
    ++%,m
                                                                                           Memorandum
                            FEB     5 W?
               Date
                       “/s/ June G. Brown
               ~rom	 June Gibbs Brown
                          Inspector     General

                    OIG Final Report : It
Beneficiary             Satisfaction   with 1996 Medicare

               S@eCtHandbook,,, c)EI-04-96-00280


                          Bruce C. Vladeck

               To         Administrator

                          Health Care Financing        Administration



                          Attached is our final inspection report on beneficiary satisfaction

                          with the 1996 Medicare Handbook.  More than 500 randomly selected

                          beneficiaries nationwide responded to our survey about their

                          satisfaction with the content and format of the new handbook.


                          Most Medicare beneficiaries who received the new handbook thought it

                          provided them with enough information to understand Medicare

                          benefits.   Actually, most preferred the condensed 1996 version to

                          the more detailed earlier versions of the handbook.    However, 27

                          percent said they had not received the 1996 handbook.    Beneficiary

                          opinions were mixed on how often they would like to receive the

                          handbook.   The Health Care Financing Administration  (HCFA) plans to

                          examine their distribution strategies to determine ways to improve

                          dissemination of handbooks.


                          We appreciate your comments on our draft report.   We are pleased to

                          hear that HCFA is examining distribution strategies to determine

                          ways to improve dissemination of the handbook.


                          If you have any questions or comments, please call me or George

                          Grob, Deputy Inspector General for Evaluation and Inspections, or

                          have your staff contact Mary Beth Clarke at (202) 619-2481.


                          Attachment


                          cc :    Melissa Skolfield
                                  Assistant	 Secretary    for

                                    Public Affairs


                                  David Garrison

                                  Principal Deputy Assistant

                                  Secretary for Planning

                                    and Evaluation


                                  Richard J. Tarplin

                                  Assistant Secretary

                                    for Legislation-Designate


                                  John J. Callahan

                                  Assistant Secretary for

                                    Management and Budget

